<html>
<title> - DISAPPEARED, JAILED, AND TORTURED IN CHINA: WIVES PETITION FOR THEIR HUSBANDS' FREEDOM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








 DISAPPEARED, JAILED, AND TORTURED IN CHINA: WIVES PETITION FOR THEIR 
                           HUSBANDS' FREEDOM

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 18, 2017

                               __________

                           Serial No. 115-31

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-459PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  


























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia


























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Chen Guiqiu, spouse of Xie Yang..............................     6
Ms. Wang Yanfang, spouse of Tang Jingling........................    27
Ms. Jin Bianling, spouse of Jiang Tianyong.......................    42
Ms. Li Ching-Yu, spouse of Li Ming-Che...........................    47

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Chen Guiqiu: Prepared statement..............................     9
Ms. Wang Yanfang: Prepared statement.............................    30
Ms. Jin Bianling: Prepared statement.............................    44
Ms. Li Ching-Yu: Prepared statement..............................    50

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Testimony of Jiang Tianyong from November 10, 2009, hearing....    64
  Letter from scholars to Xi Jinping on Li Ming-Che..............    66
  List of Xie Yang's torturers...................................    70

 
                  DISAPPEARED, JAILED, AND TORTURED IN
                    CHINA: WIVES PETITION FOR THEIR
                           HUSBANDS' FREEDOM

                              ----------                              


                         THURSDAY, MAY 18, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
afternoon to everyone and welcome to our hearing this 
afternoon.
    Lawyer Xie Yang was tortured for the better part of 2 years 
because he dared to represent China's poor and persecuted. The 
account of his detention is both harrowing and horrible.
    Xie Yang was sleep deprived and kept in isolation. Squads 
of police punched and kicked him for hours at a time. He was 
forced to sit for hours on a precarious stack of plastic 
chairs, his feet dangling painfully off the ground. Police made 
threats to his wife and children and said that they would turn 
him into an invalid unless he confessed to political crimes.
    Xie Yang and his fellow human rights lawyers wanted the 
best for China but what they got was the very worst. Since July 
2015, almost 250 lawyers and legal assistants were detained, 
sending a chilling message to those fighting for legal reforms 
and for elemental human rights.
    We are here today to shine a bright light on the brutal, 
illegal, and dehumanizing use of torture and forced 
disappearance of human rights lawyers and rights advocates in 
China. We shine a light on dictatorships because nothing good 
happens in the dark and, as we will learn today, there are some 
very, very dark places in China.
    Chinese officials repeatedly tell us and they tell me all 
the time that I should focus more on the positive aspects of 
China and not dwell so much on the negative. That is a 
difficult task when you read Xie Yang's story or read Gao 
Zhisheng's account of his torture, and his wife and his 
daughter previously have testified before our subcommittee, or 
read the account of many other very, very brave women and men 
who are standing up for human rights in China.
    It is a difficult task when you look at Li Chunfu and his 
brother, Li Heping. These are some of China's best and bravest 
and brightest, and now women and men with broken bodies, 
shattered minds, broken noses and faces, men and women who have 
aged 20 or more years after just 2 years or 3 of solitary 
confinement or torture. It is shocking, offensive, immoral, 
barbaric, and inhumane. It is also completely possible that 
Chinese officials believe the international community will not 
hold them to account.
    While President Xi Jinping feels feted at Davos and lauded 
in national capitals for his public commitments to openness, 
his government is torturing and abusing those seeking rights 
guaranteed by China's own constitution and, of course, its 
international obligations. One Oxford University scholar said 
that Xi Jinping has built a ``perfect dictatorship,'' an 
increasingly repressive garrison state that avoids any 
international censure.
    Through the United Nations and the sanctions available in 
the Global Magnitsky Act, however, we should be seeking to hold 
accountable any Chinese officials complicit in torture, human 
rights abuses, and illegal detentions. Xie Yang identified at 
least 10 police officers who tortured him. We have a list of 
those officers who he has named. They need to be investigated 
by the administration and sanctions meted out individually to 
these individuals who have visited such horror and cruelty upon 
him.
    We are in the process of gathering names of others as well. 
I, as chairman of this subcommittee, will send those names to 
President Trump, Secretary of State Tillerson, U.N. Ambassador 
Nikki Haley and the chairs and ranking members of the House 
Foreign Affairs and the Senate Foreign Relations Committee 
pursuant, again, to the Magnitsky Act protocol. We will seek 
U.N. investigations into the torture of China's human rights 
lawyers and human rights offenders. As we all know, on several 
occasions the Special Rapporteur for Torture has looked into 
the use of torture in China and has found it to be absolutely 
systematic.
    If you are arrested and you are a religious prisoner or you 
are a political prisoner, a prisoner of conscience, you will be 
tortured and you will be tortured with depravity and with utter 
cruelty.
    We know that this also violates China's obligations as a 
signatory to the U.N. Convention Against Torture. Where's the 
enforcement?
    We will also seek investigations under the Global Magnitsky 
Act, as I said. I introduced the House version of that bill, 
which as signed into law last year. That law explicitly--and it 
says explicitly--that any foreign government officials who 
engages in or is complicit in torture can be sanctioned by 
denying entry visas into the United States or by imposing 
financial sanctions. Those who tortured Xie Yang and Li Heping 
should never benefit from access to the United States or to our 
financial system. We will hear testimony today from some of the 
wives who have suffered.
    When a prisoner of conscience is sent off the jail and 
suffers it's not just that dissident who suffers. It is the 
wives, the families, the extended families. Very often they are 
rounded up as well and interrogated and beaten.
    You know, we have the great Chen Guangcheng in our audience 
today and his wife, Beijing. When Chen suffered the barbarity 
of the Chinese dictatorship for speaking up on behalf of women 
who have been coerced into forced abortions in Linyi, he 
suffered in prison, then under house imprisonment. But his wife 
and his children also suffered and showed incredible bravery 
during that entire terrible ordeal. But he persevered, he 
persisted, and today is now free and speaks out very boldly and 
effectively on behalf of human rights abuses in China.
    Pastor Bob Fu, who will be doing some of the translation, 
he too was incarcerated as a prisoner of conscience. But, 
again, he persisted along with his wife as well and found their 
way to freedom and now speaks out boldly as leader of ChinaAid.
    Finally, we will hear about Mr. Li from Li Ming-Che, his 
wife, who will also be providing testimony to us today. After 
entering mainland China in March of this year for a personal 
trip, Mr. Li went missing for 10 days before the Chinese 
officials confirmed that he was being held on so-called 
national security grounds.
    Let me just say we all know this--what a joke. People ask 
for human rights protections and they are accused of national 
security violations. It just doesn't pass the straight face 
test and it's about time that subterfuge and that lie, that big 
lie, is fully done away with and exposed.
    Many fear that Mr. Li is being detained under a harsh new 
Chinese law to monitor and control foreign-funded NGOs enforced 
earlier this year as part of the crackdown on civil society.
    As some of you may know, I also chair the Congressional-
Executive Commission on China along with Marco Rubio, and every 
year we put out a very extensive account of the human rights 
abuses in China. One of the big changes--worsening changes--
there are many--is the fact that the NGOs are now being--who 
had very limited freedom to begin with--have far less now just 
as religious organizations and denominations are also being 
cracked down by this cruel dictatorship.
    Let me just conclude by saying that we welcome the 
testimony of these wives. I hope and I pray and we will monitor 
to ensure that because they have spoken out boldly and in a 
open forum like today that any further retaliation against 
their husbands or any members of their families will be watched 
closely and Xi Jinping will be noticed and I do hope the Trump 
administration will be bold and effective as well as Secretary 
Tillerson in raising individual cases, because when you raise 
the individual cases, obviously, it helps all the others as 
well.
    I yield to Mr. Castro.
    Mr. Castro. Thank you, Chairman, for your remarks and for 
your leadership on human rights issues worldwide.
    Ranking Member Bass is unable to join us here today. I am 
not the superstar that she is but I am glad that she's allowed 
me to be the ranking member this afternoon in her absence.
    Let there be no doubt that the United States will marshal 
its political and economic might for the cause of human rights 
around the world and that we will ask the same of our allies. 
As we move further into the digital age, information is more 
accessible than ever, which means that the suffering and harm 
to people is also more visible than ever.
    The United States and nations around the world cannot turn 
away from what we see and we must take action. The tenure of 
Chinese President Xi Jinping has been accompanied by an 
increasingly harsh crackdown on any individuals and groups 
deemed to be subverting state power. The passage of the law on 
the management of foreign NGO activities raises serious 
concerns. According to the 2016 State Department report on 
human rights, the Chinese law describes foreign NGOs as 
``national security threats'' and requires all NGOs to undergo 
a difficult registration process.
    In doing so, the Chinese Government has greatly restricted 
the political space of its civil society. Chinese environmental 
activists, ethnic minorities, religious leaders, and political 
dissidents, among others, are routinely arrested and given 
years long prison sentences, often for actions as trivial as 
posting a comment online. And the lawyers representing these 
individuals often suffer equally severe treatment. Chinese 
human rights lawyers are routinely harassed by the Chinese 
security apparatus, detained for extended periods of time, 
tortured, charged with crimes, and sentenced to lengthy prison 
terms.
    Last month, President Trump met with President Xi where 
they discussed economic and political issues. The meeting came 
at a time when China's crackdown on human rights reached new 
heights. While President Trump raised the issue of human rights 
with President Xi, Secretary Tillerson dismissed the idea of 
discussing human rights in a separate dialogue. The Secretary 
instead stated that U.S. core values of human rights would be 
part of U.S. economic or political dialogue with China.
    Yet, Secretary Tillerson was the first Secretary of State 
who did not attend the annual release of the State Department's 
human rights report since the mid-1990s.
    We here in Congress will pay close attention to the actions 
of the administration and ensure they follow through on U.S. 
commitments to advancing the cause of human rights in China and 
in nations around the world.
    Today, we will hear from four brave women who continue to 
show their courage by testifying in front of the United States 
Congress. Each of their husbands has endured unjust 
imprisonment and inhumane treatment under dubious 
circumstances. They deserve our appreciation for taking great 
risks by providing firsthand accounts of China's increasingly 
restrictive political environment.
    The perseverance of our witnesses and their families is a 
reminder that the fight for just and accountable government is 
a cause worth fighting for. It's also a reminder that progress 
toward a free and fair society is fragile and must be pursued 
every day.
    And, of course, being a Member of Congress from Texas, I 
want to acknowledge that one of our witnesses has been residing 
there. After narrowly escaping Chinese authorities in Thailand, 
Ms. Chen made her way to my home state. We are happy to have 
you here, Ms. Chen.
    Again, I want to thank each and every one of you for 
sharing your stories and your family stories with us today. I 
yield back.
    Mr. Smith. Thank you very much, Mr. Castro.
    I would like to introduce our distinguished witnesses and 
again thank them for--thank you for your bravery and courage in 
coming forward.
    We will begin first with Chen Guiqui, who is the wife of 
Christian human rights attorney, Xie Yang. Xie Yang focused his 
professionally life in helping those victimized by the 
Communist regime's forced demolitions and migrations as well as 
impoverished people whose rights were trampled on by the 
Chinese Government.
    Because of his work, he was taken away on July 11th, 2015 
as part of Xi Jinping's nationwide crackdown on human rights 
defenders. I mentioned some of the horrific ordeal that he has 
endured in my opening and we will hear from his wife very 
shortly.
    We will then hear from Wang Yanfang, who is the wife of 
Tang Jingling, who is a human rights lawyer whose clients have 
included villagers fighting government corruption and victims 
of illegal land appropriation. In 2006, Tang's license to 
practice law in China was suspended, after which he became 
involved in a nonviolent civil disobedience movement in China.
    In 2012, he was detained for 5 days following his work 
investigating the death of a human rights defender. In 2014, 
Mr. Tang was detained on suspicion of inciting subversion of 
state power in the weeks leading up to the 25th anniversary of 
the Chinese Government's violent crackdown in Tiananmen Square. 
He was tried in July 2015 along with two other prominent 
political advocates, and Ms. Wang is currently staying in the 
U.S. while she advocates for her husband's release.
    We will then hear from Jin Bianling, wife of Jiang 
Tianyong. Jiang Tianyong is a veteran human rights lawyer who 
has worked on prominent cases including those of Chen 
Guangcheng and Gao Zhisheng. He has also worked on cases 
advocating for the rights of AIDS and hepatitis B-infected 
people as well as other human rights and humanitarian cases.
    From 2009 to 2012, Chinese officials harassed, kidnapped 
and physically tortured Tang and on numerous occasions for his 
human rights work. In November, he traveled to Hunan to pay a 
visit to Chen Guiqui, the wife of the imprisoned human rights 
lawyer who will speak momentarily. He was kidnapped while 
returning to Beijing on November 21st and placed under 
residential surveillance for alleged subversion of state power. 
He is now being held.
    Finally, we will hear from or we will hear from Li Ching-
Yu, the wife of detained Taiwan community college worker Li 
Ming-Che. Ms. Li graduated from the Department of Labor 
Relations at the Chinese Culture University in Taiwan where she 
and her husband met and began to participate in social 
movements. Before 2014, Mr. Li began discussing Taiwan's 
historical experiences and issues of transitional justice with 
a group of Chinese friends through the instant messaging app 
WeChat.
    In 2015, Mr. Li's WeChat account was blocked from using the 
group chat feature and Mr. Li began proactively seeking books 
as gifts to his Chinese contacts who are interested in human 
rights and/or modern history. Around February, 2016, he was 
called on friends through WeChat to raise funds for the family 
of a Chinese civil rights activist.
    Later that year in August 2016, the books he sent to 
Chinese friends were confiscated. He went missing as he was 
entering China from the city of Macao, on March 19, 2017, so 
that is just a few weeks ago. Ten days later after his forced 
abduction, the Taiwan Affairs Office admitted he was in custody 
and that is why we are here today to seek his release as well.
    Because we do want to hear all of you, Mr. Castro and I 
will take a brief respite to go vote. But we will then come 
back and we look forward to your testimony and I apologize for 
that inconvenience.
    We stand in recess subject to the call of the chair.
    [Recess.]
    Mr. Smith. The subcommittee will resume its sitting and I 
would like to yield to Randy. Randy, any comments you might 
have?
    Mr. Hultgren. I'll be very brief but I just wanted to say 
thank you for being here. Just humbled and amazed by your 
courage, by the stands that you are taking but also that your 
husbands are taking and it is so important for us to hear your 
stories to be able to share that with others. But also know 
this is, it is hard for us to still even comprehend or wrap our 
mind around what you are going through and what others like 
your families are going through.
    So our hope is meetings like this, hearings like this, can 
encourage and push those entities that are doing these horrible 
atrocities to stop, to free your husbands and to make sure that 
this doesn't happen to anyone else's husband. So thank you for 
being here.
    I'll look forward to hearing more of what we can do and, 
hopefully, seeing some positive results in very difficult 
circumstances.
    So thank you, Chairman. I yield back.
    Mr. Smith. I thank Chairman Hultgren for coming but also 
for his great work that he does as chairman of the Lantos Human 
Rights Commission. He does wonderful work there including on 
human rights abuses in China. So thank you, Randy.
    I would like to now ask Chen Guiqui if you could provide 
your testimony.

        STATEMENT OF MS. CHEN GUIQIU, SPOUSE OF XIE YANG

    [The following statement and answers were delivered through 
an interpreter.]
    Ms. Chen. Honorable Chairman Chris Smith, Honorable 
Subcommittee on Africa, Global Health, Global Human Rights, and 
International Organization Representatives, ladies and 
gentlemen, I am the wife of human rights lawyer Xie Yang.
    I would like to thank God, the Trump administration, 
ChinaAid Association, and the hardworking diplomats. I also 
want to express my gratitude toward Representative Chairman 
Smith as well as other politicians and the friends who are 
concerned with the development of human rights and the judicial 
system in China.
    With your help, my two daughters and I escaped from the 
jaws of death and arrived in the United States, the land of 
freedom. With your help, I am able to stand here to speak on 
behalf of the victims in China who do not have a voice.
    I would like to give you a better idea of human rights 
conditions in China. And the next I will--with the help of Bob 
Fu to help me. So I have a request to submit the torture record 
of my husband and also my husband's declaration on January 13, 
2017, about his torture as part of the record.
    Mr. Smith. Without objection, all of those additions will 
be made a part of the record and that goes for all of our 
wives. Whatever it is you'd like to become a part of the record 
will be, without objection.
    Ms. Chen. Thank you so much. Xie Yang represented dozens of 
cases on behalf of the downtrodden, including poor Chinese 
citizens who have had their houses or land seized from them 
without compensation, dissidents, members of China's religious 
communities, and other marginalized and persecuted groups.
    Due to his work defending human rights, he was jailed and 
brutally tortured. After Xie Yang was arrested by national 
security agents in Changsha and placed in secret detention for 
6 months, his captors brutally tortured him attempt to make him 
confess and provide evidence against his colleagues.
    The methods of torture included beatings delivered in 
rotation by a roster of guards, exhausting interrogations for 
over 20 hours at once, having cigarette smoke blown into his 
face and eyes, starvation, dehydration, and the refusal of 
medical treatment for his illness. To force him to surrender, 
his interrogators even threatened to arrange a car accident to 
injure his wife and children. He was beaten by a prison guard 
named Yuan Jin during his detention.
    On November 21, 2016, his defense lawyer, Zhang Chongshi, 
visited Xie Yang for the first time and witnessed Yuan Jin 
beating him while he was waiting. Xie Yang's head swelled up 
and began to bleed.
    Inmates who have been released from his detention center 
told me that he was not allowed to access money so he could not 
even buy toothpaste and toilet paper, not allowed to 
communicate with others.
    He was purposely singled out. The guards specifically 
arranged for criminals sentenced to death to live with Xie Yang 
so that he would be beaten up and harassed. The publication of 
Xie Yang's torture account has had an immediate impact both 
inside China and internationally, as I just submitted today.
    Xie Yang's court session was held on May 8, 2017. None of 
the witnesses showed up. None of the defense lawyers I hired 
showed up. I did not even receive a notice of the court 
session. Instead, Xie Yang attended the session with an 
official lawyer appointed by the government. The friends who 
planned to witness the court session were seized and arrested 
by the national security agents.
    Xie Yang was forced to admit his guilt and deny the torture 
he suffered in the detention center. Regarding the fact that he 
was not allowed to see his lawyer for 16 months or communicate 
with the outside world, he was forced to acknowledge that his 
rights were protected. He was bailed out after the court 
session but still has not regained freedom. The national 
security agents followed him wherever he goes.
    I strongly hope the Honorable President Trump and the U.S. 
Congress can immediately and effectively urge China's central 
government to investigate the actual facts behind the torture 
of those arrested in the 709 crackdown, simultaneously enacting 
legal sanctions against those who practice torture.
    I request that China clearly ensures that other 
incarcerated prisoners of conscience do not continue to receive 
harm. I call on President Trump to conscientiously implement 
the Global Magnitsky Human Rights Accountability Act, punishing 
those who we have irrefutable evidence of them practicing 
torture and infringing on human rights.
    I earnestly request that President Trump meet with the 
family members of the Chinese people who have suffered before 
he goes to China, as he's visiting with them publicly with this 
concern for China's worsening religious freedom, rule of law, 
and human rights conditions.
    I also ask that he publicly give China's leaders a list of 
prisoners of conscience and to free the 709 case's victims.
    Chen Guiqui. Thank you.
    [The prepared statement of Ms. Chen follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
                              ----------                              

    Mr. Smith. Ms. Chen, thank you so very much for your 
testimony and, again, for you and all of the wives for your 
bravery.
    We'd like to now ask Wang Yanfang. So Ms. Wang.

     STATEMENT OF MS. WANG YANFANG, SPOUSE OF TANG JINGLING

    [The following statement and answers were delivered through 
an interpreter.]
    Ms. Wang. Honorable Chairman Smith, Honorable Subcommittee 
on Africa, Global Health, Global Human Rights, and 
International Organizations representatives, ladies and 
gentlemen, my name is Wang Yanfang, wife of human rights 
lawyer, Tang Jingling.
    I would like to express my gratitude to Representative 
Chris Smith, Senator Marco Rubio, Representative Nancy Pelosi, 
Representative Hultgren, and many other Representatives, as 
well as Bob Fu, president of ChinaAid Association, for your 
attention to and support of my husband and many other victims 
of human rights abuse in China. I would like to request the 
committee to archive my husband's report on the violation of 
human rights in Chinese prisons. The rest of my testimony will 
be read by Jasmine Chia Shih.
    As the institution of religious freedom, rule of law, and 
human rights continues to deteriorate in China, support for the 
victims of the international community is very valuable and 
precious.
    This is also an important milestone in joint endeavors to 
maintain universal values all over the world. In the past few 
decades, people of many countries terminated their seemingly 
powerful and long-lasting autocratic regimes through nonviolent 
resistance and fulfilled the transition from autocracy to 
democracy.
    My husband is a well-known human rights lawyer. He is also 
the initiator and a keen advocate of the civil disobedience 
movement. He is dedicated to promoting the civil disobedience 
movement, hoping to bring forth a democratic and free China. In 
1995, the national security police began to monitor Tang 
Jingling after he expressed his lifelong mission to promote 
democracy in China. In 1999, he published an article on China's 
democratization in Guangzhou. Then, he was forced to leave the 
big law firm he was working for.
    As a human rights lawyer, he's been involved in many major 
cases of human rights abuse, political rights abuse, and 
workers' rights abuse. For example, in 2003, a petition was 
initiated to abolish the internment and repatriation 
regulations and cancel the temporary residence permits policy 
after college student Sun Zhigang's death. Tang Jingling served 
as the legal counsel. In 2004, he was the defense lawyer for 
the two people charged in the Xingang labor unrest case in 
Dongguan.
    In January 2005, he defended the newly elected village head 
in the Shibi Third Villagers' campaign to remove old village 
officials. In August 2005, he was one of the key lawyers in the 
case of the Taishi villagers' campaign to remove village 
officials. Due to his involvement in human rights cases, the 
authorities forced his law firm to terminate his employment and 
suspended his lawyer's license.
    In 2006, he planned to attend an event in the U.S., but he 
was stopped at customs and his passport was confiscated by the 
police. He's still not allowed to leave the country to this 
day. After losing his lawyer license, he participated in many 
human rights cases as a citizen, including the poisonous 
vaccine lawsuit, the investigation of Li Wangyang's death, and 
many other cases involving land property, forced demolition, 
and so on.
    My husband graduated from Shanghai Jiaotong University in 
1993. He began to participate in law in 1998. He lost his 
lawyer license in 2005. Due to his work in human rights 
protection during the Jasmine Movement in February 2011, he was 
charged with inciting subversion of state power and was 
detained in a black jail where he was threatened and tortured, 
including extensive sleep deprivation for 10 days in a row. He 
was allowed to sleep for 1 to 2 hours a day after he began to 
have some dangerous symptoms like trembling all over, numbness 
in both hands, and heart discomfort until he was released on 
August 2, 2011.
    He initiated and promoted the civil disobedience movement 
to seek justice for people at the bottom of the society. But 
his wife was forced to lose her job in May 2008.
    During his detention in February 2011, I was forcibly 
brought to Conghua and detained. They took my phone, bruised my 
arms, and didn't allow me to notify my family and lawyer, which 
caused my severe depression and poor health. Then the police 
tricked my mother to go to Guangdong to take care of me, and I 
was put under house surveillance for a long time. I was not 
allowed to meet with any family and friends. I was not even 
allowed to leave my home. More than 20 people took turns 
watching me. I was completely isolated from the outside world 
for almost 5 months. When my husband was released, my physical 
and mental health had been severely damaged.
    On May 16, 2014, Tang Jingling was criminally detained on 
the charge of ``picking quarrels and provoking troubles'' and 
was arrested on June 20 with the charge of ``inciting 
subversion of state power.''
    On September 23, his mother passed away on hearing of his 
arrest. His lawyer and I applied to bail him out to attend his 
mother's funeral. But the authorities ignored everything on 
legal, moral, and humanitarian levels and rejected our request. 
They didn't notify him of her death until October and caused 
deep sorrow. The authorities forbade his lawyer to meet with 
him for 6 months while his case was being transferred to the 
procuratorate.
    During the 2 years in the detention center all 
communication was banned. There was no way to guarantee his 
rights.
    On January 29, 2016, he was sentenced to 5 years 
imprisonment with the charge of inciting subversion of state 
power. He's serving the sentence in Huaiji Prison, Guangdong 
Province.
    Since he was arrested in August 2013, I was put under 24-
hour surveillance, which brought huge emotional pressure and 
fear to me. However, I've been appealing for my husband. I 
request the release of him.
    On July 1, 2014, I went to Hong Kong to attend a 
demonstration and appealed in the media to urge people to pay 
attention to Tang Jingling and other prisoners of conscience 
like Yuan Chaoyang and Wang Qinqying. I was threatened by the 
police after returning to Guangdong and my freedom was 
restricted during the so-called ``sensitive'' period. After the 
massive arrest of human rights lawyers on July 9, 2015, I got 
in touch with families of arrested human rights lawyers and 
went to the Supreme People's Procuratorate with them.
    In August, I was not allowed to leave home. Since Tang 
Jingling worked as a lawyer more than a decade ago, he 
participated in many human rights cases and promoted civil 
disobedience movement. Consequently, he lost his lawyer 
license. He was detained, monitored, arrested, tortured and 
sentenced, and I lost my job, was harassed, summoned, 
monitored, and detained.
    Today, other 709 case lawyers are still suffering from such 
torture. Many prisoners of conscience are still unable to meet 
with their lawyers and families. Christian churches are still 
being shut down. Christians are still being detained and 
sentenced.
    Thus, I sincerely plead with President Trump and the U.S. 
Congress to urge the Chinese Government guarantee Tang 
Jingling's right to meet with his lawyer and his right to 
reading, communication, medical treatment, and food with enough 
nutrition as well as ensure that Tang Jingling, Wang Quanzhang, 
Jiang Tianyong, Wu Gan, Yuan Xinting, and other 709 case 
lawyers and prisoners of conscience have their basic human 
rights in prison and make certain that they are not being 
tortured and are released to reunite with their families.
    I hope President Trump can meet with families of the 
victims in the U.S. before his visit to China, talk about his 
attention to China's worsening religious freedom and human 
rights situation during his visit, and give the list of 
prisoners of conscience to the Embassy.
    I believe this is also an important action to maintain 
universal values all over the world.
    Thank you. Wang Yanfang.
    [The prepared statement of Ms. Wang follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
 
                              ----------                              

    Mr. Smith. Thank you so very much for your very moving 
statement.
    And I would like to now yield such time as you may consume 
to Ms. Jin.

    STATEMENT OF MS. JIN BIANLING, SPOUSE OF JIANG TIANYONG

    [The following statement and answers were delivered through 
an interpreter.]
    Ms. Jin. Honorable Chairman Chris Smith, Honorable 
Subcommittee on Africa, Global Health, Global Human Rights, and 
International Organizations Representatives, ladies and 
gentlemen, thank you very much for your attention to my husband 
Jiang Tianyong's suffering.
    Jiang Tianyong is a Chinese human rights lawyer. He began 
to advocate for human rights in 2006, representing hepatitis B 
patients, AIDS patients, and numerous Falun Gong practitioners.
    In order to promote the legal rights of lawyers, he 
contributed to the direct election of the Beijing Lawyers 
Association and exposed corruptions within the Beijing judicial 
system, such as blackmailing and racketeering. I am willing to 
provide photographic evidence of our heavy surveillance 
surrounding our house in China and also the audio recording of 
my husband when he was disappeared during the Jasmine 
Revolution.
    On October 29, 2009, Jiang Tianyong participated in a U.S. 
congressional hearing and spoke on the main theme, which was 
the problem with China's legal system and religion.
    I am bearing witness to how the national security police 
retaliated against our entire family as a result of this 
testimony.
    Ever since Tianyong was forced to stay home on sensitive 
dates, such as meetings of the National People's Congress, the 
Political Consultative Conference, June 4, which is the 
anniversary of the 1989 Tiananmen Square Massacre, or during 
important political leaders' visits to China, he could only get 
out of the house by taking their police cars. I have videos to 
verify all of this.
    Beginning on February 15, 2011, Tianyong disappeared for 2 
months during the Jasmine Revolution. He was brutally beaten, 
deprived of sleep, forced to watch CCTV news, sing songs, and 
recite patriotic articles to praise the Chinese Communist 
Government, and write thousands of pages of repentance letters. 
The videos can serve as evidence.
    On May 3, 2012, five national security agents from the 
Haidian District, Beijing, represented by Du Yuhui, beat 
Tianyong up when he attempted to visit the barefoot lawyer, 
Chen Guangcheng, at the hospital. Tianyong temporarily lost his 
hearing due to the perforation of his left ear's tympanic 
membrane. The police repeatedly took Tianyong away for 
questioning and threatened him, saying that our child could not 
go to school if he refused to cooperate. They also said that I, 
as his wife, could be affected as well. The long-term 
harassment and threats consumed me.
    I even thought of suicide. My child's mental condition was 
severely disrupted. Desperate, I brought my daughter to the 
U.S. in May 2013.
    On March 20, 2014, the local national security agents 
arrested Tianyong again in Jiansanjiang, Heilongjiang while he 
was representing Falun Gong practitioners. The police broke 
eight of Tianyong's ribs during the 16 days of detention. I 
have the diagnosis from the hospital as proof.
    On November 21, 2016, Jiang Tianyong disappeared on his way 
back to Beijing after visiting the family members of lawyer Xie 
Yang. Now the government has already banned him from meeting 
with lawyers for 178 days and we do not know where he is 
detained. Tianyong's parents have been put under surveillance. 
The national security agents follow them wherever they go. 
According to the news on May 12, 2017, Tianyong has been 
tortured, and his legs are too swollen to walk.
    In order to safeguard human rights and the universal worth 
of defending legal rights, I strongly hope the Honorable 
President Trump and the U.S. Congress can immediately and 
effective urge China's central Government to investigate the 
actual facts behind the torture of those arrested in the 709 
crackdown, simultaneously enacting legal sanctions against 
those who practice torture and request that China clearly 
ensures that other incarcerated prisoners of conscience do not 
continue to receive harm.
    In addition, I want to mention that Tianyong has already 
received a letter confirming his political asylum in the United 
States. I hope that President Trump can negotiate with the 
Chinese Government during his visit and let Tianyong reunite 
with me and my daughter.
    May 19th is Tianyong's 46th birthday. I hereby make a wish 
on behalf of Tianyong and our family. I hope he can regain 
freedom so his aging parents would not have to worry constantly 
and his daughter could have her wish fulfilled and embrace her 
father.
    I hope I can forever set aside my heart, which anxiously 
worries about Tianyong, and a tranquil and merry life can come 
to our household.
    Thank you. Jin Bianling.
    [The prepared statement of Ms. Jin follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
                              ----------                              

    Mr. Smith. Ms. Jin, thank you so very much.
    I would like to now yield to Ms. Li.

      STATEMENT OF MS. LI CHING-YU, SPOUSE OF LEE MIN-CHE

    [The following statement and answers were delivered through 
an interpreter.]
    Ms. Li. Chairman Smith, members of the committee, good 
afternoon. I am Li Ching-Yu, wife of Li Ming-Che.
    I would like to thank each of you for upholding and 
defending the values of freedom and democracy, values that 
human rights activists, including my husband, have dedicated 
their entire lives and energies to. I would also like to 
express my gratitude toward all the congressmen, especially 
Chairman Royce and Chairman Smith, who strive to maintain and 
further secure the implementation of the Taiwan Relations Act.
    I am deeply honored to be here today alongside these three 
respectable women who have gone through such perilous 
situations for the cause of democracy and human rights.
    It's after hearing about their journeys that I realized how 
fortunate I am as a Taiwanese. I further understood the 
blessings of our democracy, which exists today, thanks to the 
support of the U.S. Government and all the 20th century 
Taiwanese human rights activists, as mentioned by Chairman 
Royce in the March 14, 2014, hearing on the TRA.
    My husband, Li Ming-Che is from a--is from a Chinese 
refugee family that emigrated to Taiwan following the 
nationalist government in 1949.
    His background and emotional connection to China have 
contributed to his supports of Chinese human rights efforts. 
From 2012 until his disappearance, he gave online lectures 
through WeChat on the democratization of Taiwan and the history 
of the White Terror period. He also managed and contributed to 
a social justice fund for the purpose of financially supporting 
Chinese political prisoners and their families experiencing 
economic hardship that stemmed from their support of the values 
of freedom, justice, and democracy.
    On March 19, 2017, while on an annual visit to China to 
meet with people he worked on the fund with, my husband was 
subjugated to enforced incommunicado detention. It's been 61 
days since I last saw him. I am concerned. I am concerned about 
his health, for he suffers from high blood pressure. I am 
concerned for his safety. I do not know where he is for the 
Guangdong government has refused to disclose the location of 
his detention.
    The deprivation of my husband's liberty by the local 
Guangdong government is arbitrary and transgresses Articles 9, 
19, and 20 of the Universal Declaration of Human Rights, the 
Cross-Strait Joint Crime-Fighting and Judicial Mutual 
Assistance Agreement, and International Covenant on Civil and 
Political Rights.
    It was not long after my husband's enforced disappearance 
that I learned about his detainment from a middleman. Since 
current cross-strait relations are highly abnormal, many such 
cases that involve Taiwanese people being detained or arrested 
in China are settled through brokers. These brokers for the 
most part represent the interests of the PRC. I was shown a 
copy of a letter that was written under involuntary 
circumstances by my husband.
    This letter was in the hands of Li Jun-min, a 
representative of the PRC Taiwan Affairs Office. He threatened 
me, insisting that I cancel my trip to Beijing and also silence 
myself. Li expressed clearly that the detention originated as a 
result of the provincial government of Guangdong's desire to 
show its strict enforcement of the newly-passed foreign NGO 
management law. He threatened that if I were to go to Beijing, 
the local Guangdong government would release a video of my 
husband admitting to having committed criminal actions.
    The U.S. has long insisted that its policy of no 
negotiation with terrorists is to be firmly followed. I also 
believe in that policy. I refuse to negotiate with a broker on 
such unequal grounds. If I did, it would be harmful and 
shameful to my family, my country, and my fellow human rights 
activists.
    Additionally, to my great disappointment, the Chinese 
Government has unreasonably revoked my travel visa, even though 
I have clearly and calmly explained that I only wanted to 
travel to better understand the situation.
    China's position toward human rights and the rule of law is 
drastically different from that of Taiwan and other civilized 
democratic countries. China should not assume that their 
military and economic growth could force Taiwan to be annexed 
by it.
    If China maintains that my husband's actions of spreading 
the values of democracy and aiding the family of members of 
political prisoners can pose a threat to its national security, 
I believe the people of Taiwan will become not only more 
certain of their unwillingness to be annexed but also hesitant 
to preserve a close relationship with China. It has only been 
around 20 years since Taiwan successfully overthrew the White 
Terror's one-party dictatorship. So it is highly unlikely that 
we will be willing to accept another despotic government.
    I have no other choice but to come and stand before you to 
ask for help from you. United States of America is the leading 
democracy in the free world. It was built upon the unalienable 
rights of life, liberty, and the pursuit of happiness.
    The U.S. has long been the protector of justice, freedom, 
and democracy everywhere. It has accepted the moral obligation 
to aid people deprived of their natural rights. The American 
Congress' unwavering dedication toward these values has 
influenced many countries including my home country, Taiwan, to 
embrace the spirit of human rights and democracy.
    The U.S. Congress has also voluntarily taken the 
responsibility as specified in Section 2, Clause 3 of the 
Taiwan Relations Act, to preserve and enhance the human rights 
of the people of Taiwan.
    Therefore, I stand alone before you today to plea for your 
help for my husband. I am pleading to the United States to 
continue to act as according to the TRA. I am pleading the 
United States to continue to support the value of which it has 
always unbendingly defended. I am pleading to the United States 
to continue to uphold the values of which it was formed upon. I 
am pleading to the U.S. Government to pressure China to 
recognize the provincial government of Guangdong's illegitimate 
detention of my husband, Li Ming-Che, and free him.
    Thank you. Li Ching-yu.
    [The prepared statement of Ms. Li follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
                              ----------                              

    Mr. Smith. Ms. Li, thank you very much as well for your 
testimony.
    Finally, the Taiwanese Government is working behind the 
scenes to resolve the case of Li Ming-Che, although I am sure 
such efforts are hindered by Taiwan's complicated diplomatic 
ties with Beijing.
    As I've said before, Taiwan is an important democratic ally 
and a beacon of peace and democracy in Asia. The U.S. should 
remain committed to the Taiwan Relations Act and the Six 
Assurances as the cornerstone of U.S.-Taiwan relations. 
Political issues between China and Taiwan should be resolved 
through appropriate mechanisms between the two sides. The 
Chinese Government's decision to detain Li Ming-Che singled 
Chinese officials' willingness to break its international human 
rights obligations for political gains, again, needlessly 
straining the cross-strait ties.
    We do have a video, about a 4-minute video. It was sent to 
us by the wives of lawyers of Li Heping and Wang Quanzhang. It 
features Wang Qiaoling and Li Wenzu and it will now play for 
us.
    [Video shown.]
    Thank you so very much for those insights, horrible and 
brutal as they are, concerning the torture.
    Let me ask a few questions and then I will yield to my 
colleagues for any questions they might have, and first of all, 
let me begin by saying to Ms. Jin how heartbroken I and others 
are over your husband's incarceration.
    I will remind members of our subcommittee that your husband 
testified on November 10, 2009, at a hearing that I chaired. He 
very much wanted to present testimony as a human rights lawyer.
    It was the Tom Lantos Commission and I was chairing that 
hearing, and without objection, his testimony from that hearing 
will be made a part of this record as well.
    But he was very firm, very clear in his testimony. He 
talked about working with Chen Guangcheng on behalf of women 
who had been subjected to the brutality of the one-child-per-
couple policy--a policy that treats women as chattel and kills 
their children and does so right up into the 9th month of 
pregnancy. As we all know, under that brutal policy there are 
now missing about 62 million females, a direct result of sex-
selection abortion, causing huge disparities in the male-female 
ratio.
    But, as you know, Ms. Jin, your husband bravely tried to 
defend the women from this assault and for that he was 
incarcerated.
    I would add to that that he returned to China--and this 
underscores something that has to come out of this hearing and 
all of our efforts going forward. He went back to China. 
President Obama was in Beijing. He asked and thought he had a 
meeting with him along with some of the other human rights 
lawyers. He did not. And hours after the President of the 
United States left on Air Force One, he was arrested and his 
horrific ordeal that continues to this day continues.
    It shows, in my opinion, that there is a consequence for 
being so brave, which is why we are all concerned about you and 
your husbands and the fact that at the highest levels of 
government, and this appeal is to the President of the United 
States today and the Vice President, Mike Pence, that our voice 
has to be clear.
    We have to look Xi Jinping and other top leaders in the 
eye, have names, lists, the way Reagan did, and did so 
effectively during the worst days of the Soviet Union, when 
there was always a list of dissidents, human rights activists, 
and Jewish refuseniks that he would tender to the leaders of 
the Soviet Union, and those people--not all, but many of them 
got out and for many others the torture was ameliorated because 
we paid attention to what was going on.
    I would also add that we will ask President Trump--we will 
present him with your testimonies--and Vice President Pence--
and ask him to meet with you and I would add we would ask him 
to meet with the five daughters as well and a few other very 
notable human rights activists who have suffered for their 
convictions in China.
    We had five daughters here presenting testimony in 2013. We 
called it the Five Daughters Hearing. They all had a dad who 
was incarcerated and subjected to torture. We asked President 
Obama to meet with them so that when he met with Hu Jintao, and 
after that Xi Jinping, he would have their cases and their 
pleas, their appeals, often through tears, uppermost in his 
mind to convey that agony to the leader of the Chinese 
Government.
    We tried for months to arrange that meeting. At the end of 
about 6 months we were told by the White House he doesn't have 
the time.
    Now, if President Trump and Vice President Pence gives the 
same indifference, same answer, which I think is a callous 
disregard for suffering people, I will be here at this podium 
speaking out against that lack of concern and empathy for 
suffering people.
    Those young ladies said at that hearing President Obama has 
two daughters--he'll understand what it's like for a daughter 
to speak on behalf of her father. You, as wives, are doing 
exactly the same and I want you to know we, in this 
subcommittee, both sides of the aisle, have nothing but concern 
and empathy for each and every one of you, for your husbands, 
for your families.
    And just a couple of very quick questions. When your 
husbands are incarcerated, and many of you spoke about this--
Ms. Wang, you spoke of being severely damaged physically and 
mentally because of your husband's incarceration. The Chinese 
dictatorship knows that when they arrest your husbands or any 
dissident or prisoner of conscience the whole family goes to 
jail.
    They know that the friends of the family of the 
incarcerated individual goes to jail as well. All the more 
reason why we need to significantly up our voices, make our 
voices much clearer in Congress and at the White House, at the 
State Department, and added to that, we need to use the tools 
that are at our disposal from Country of Particular Concern for 
religious believers, sanctioning the Government of China for 
its egregious human rights violations on religious freedom, use 
the Trafficking Victims Protection Act and make them a Tier 3 
country, which they deserve to be for the government's 
complicity in human trafficking which is bad and getting worse.
    And then for the political dissidents like your husbands, 
who represent a cross-section of suffering individuals in 
China, including labor rights. There is no doubt that China 
does not respect ILO standards--International Labour 
Organization standards--from collective bargaining to even 
paying a decent wage, and with impunity they crush independent 
trade union efforts. We have had at our hearings in the past 
leaders of that movement come and testify and say, yes, they 
have a labor union run by the government--it is a farce.
    So my question would be the impact on the families and 
also, if you would, speak to your hopes and expectations of 
what we might do next.
    Again, I think you've said it in your testimonies--
implement our laws. We have a toolbox filled with the capacity 
to hold China to account. Magnitsky is just the latest 
iteration of a tool that can't stay in that toolbox. And the 
Chinese Government must know, collectively as a government and 
individually, those who commit these crimes need to be held to 
account and we have the tools to do it.
    So yes, Ms. Chen.
    Ms. Chen. I have the latest news today. Those public 
security officers threatened my husband and the family members 
that if I do not return to China, they will give him a heavier 
sentence. So I feel, even in the United States, I don't feel 
safe, and I am haunted, and I really seek protection by the 
U.S.
    Mr. Smith. Would anybody else like to comment before I 
yield to Mr. Castro? Yes.
    Ms. Chen. So I call upon the U.S. Government to express to 
the Chinese Government to stop the--this kind of brutal 
persecution against the victims of the 709 cases and their 
family members and to restore their dignity. Because the 
Chinese Government is also a signatory country of the anti-
torture international covenant. So I want to call upon the 
Chinese Government to release the videos of during these 
victims' incarceration and to show what they have gone through.
    And because all the family members of the 709 cases and 
others persecuted, their children are stopped by the Chinese 
Government for education and schooling, and President Trump has 
his own children, so I do hope he can meet with ours. We can 
express that to him face to face, and also our family members 
inside China.
    Mr. Smith. Ms. Jin.
    Ms. Jin. By June 1st, it is already 6 months of my husband, 
Jiang Tianyong's, enforced disappearance. Right now, both of 
his parents are being monitored and followed closely. They were 
forced to write promises that they would not communicate or 
have any contact with me. Of course, we just heard from Ms. 
Wang Qiaoling, the wife of Li Heping, who revealed the torture 
he had experienced. Jiang Tianyong also had been experiencing 
torture.
    And the similar experience of being drugged was also shared 
by other recently released human rights lawyers, like Li 
Chunfu, like Li Shuyun, and, of course, Li Heping. And to the 
point attorney Li Chunfu was even tortured with serious mental 
illness.
    Even last night, the Chinese official microblog, Weibo, 
showed a short video clip. On that video, it shows my husband, 
Jiang Tianyong, was kind of walking, and on that video, it 
claims that Jiang Tianyong was not tortured. But when I 
observed that short video, I noticed on the legs, both legs of 
Jiang Tianyong the kind of black and blue marks are still there 
on his legs, and his face has been very swollen and his right 
arm cannot move when he walked.
    So I could not believe what the government claimed, that he 
was not tortured. So I am deeply concerned about what's 
happening with Jiang Tianyong and his well-being and his life, 
and even until today he was denied lawyer's visitation. And 
further, Jiang Tianyong has already been approved as a U.S. 
asylee, granted by the U.S. Government in 2016 already. But the 
Chinese regime refused to let him exit from China. I hope 
President Trump can really express this point with the Chinese 
leaders and plead with the Chinese Government release Jiang 
Tianyong and to have family reunion here in the United States 
with us.
    Today is Jiang Tianyong's birthday. My daughter and I have 
been here for 4 years but we have never met again. My daughter 
is really, really eager to hug her daddy.
    Mr. Smith. Thank you.
    Mr. Castro.
    Mr. Castro. I think they just called votes and so I want to 
say thank you to each of you for your courage and your bravery 
in coming here to Congress and telling us your stories.
    I hope that you'll continue to give us counsel and guidance 
on how you believe the United States can be more helpful as it 
comes to China and the issue of human rights and we, in turn, 
will monitor not only your situations and the situations of 
your husbands but also of others who are going through similar 
things in China.
    And as I mentioned earlier, this should be an effort not 
only for the United States but also for the allies of the 
United States around the world.
    So your suggestions on how you believe that the friends of 
the United States, those nations who also believe in strong 
human rights can be helpful with respect to China and ensuring 
that China is a place that respects the human rights of its 
people and the freedoms of its people. Thank you for being 
here.
    Mr. Smith. Mr. Castro, thank you very much.
    Mr. Garrett.
    Mr. Garrett. Thank you, Mr. Chairman.
    It's troubling as I review the remarks of the ladies here 
today and consider that not only were the victims of the 709 
crackdown jailed and subsequently tortured because they were 
brave enough to take a stand in favor of human rights but that 
in fact it would appear that a meeting planned with the United 
States President may have been a pretext for an arrest of other 
individuals in China.
    As a member of this subcommittee, I understand that when we 
hold hearings such as this it is our responsibility to try to 
work to help people. But it is my fear that your courage in 
being here might be used as a pretext again to hurt people.
    With that said, I understand that as one Member of 435 and 
one of two chambers in a legislative body there is only so much 
that I can do. But I want to be abundantly clear for the record 
and for these brave women. To the extent that I have the 
ability to cast a vote that will deal favorably or unfavorably 
with the regime based on how it treats its own citizens and 
people who seek to affect positive human rights changes, I will 
consider their actions when I make my vote.
    To the extent that I have the ability to put forward policy 
that will shape the United States policy as it relates to 
nations based on how they treat their citizens and other 
citizens, I will consider these things in how I advance policy.
    And to the extent I am able to influence my colleagues and 
the executive branch of this government as it relates to 
relations with foreign nations to include dominant global 
forces such as the People's Republic of China, I will consider 
how they treat their people and other people as it relates to 
human rights when I seek to exert that influence.
    We shouldn't convene committee hearings to help people that 
we know have the potential to lead to greater harm to people 
without ensuring the folks that we seek to help, you all, that 
we will do everything in our power to make sure that all we can 
effect that is good is affected.
    With that, I offer my admiration and my thanks for the 
courage of these ladies, my encouragement for people who, in 
China as everywhere, seek basic human rights as outlined in 
foundational American documents--life, liberty, and the pursuit 
of happiness--but as aspired to by people across the globe and 
promise that within my small ability to make a difference I 
will side with human rights and with people who have suffered 
like yourselves wherever possible and I appreciate the chairman 
for creating this opportunity and I commend your courage, and 
to the extent it is appropriate you have my prayers and my 
promise to do what I can.
    Mr. Smith. Mr. Garrett, thank you very much for that very 
strong statement. And you are right, they all have our prayers 
as well as everything we can do as a committee in a bipartisan 
way and as a Congress to assist your husbands and the other 
lawyers.
    I remember years ago at a Northern Ireland hearing we had a 
woman whose husband was murdered--a human rights lawyer named 
Patrick Finucane--and the bottom line was that by killing and 
hurting lawyers who are really one of the last protections that 
citizens have to exercise due process rights and to get their 
case to resolve grievances, the Chinese Government is going for 
the jugular with this and I think all of us in the Western 
countries need to realize that our voices have to be raised 
higher and louder and more effectively than ever before.
    And as I said before, every tool that we have in our 
toolbox needs to be deployed on behalf of your husbands. If the 
lawyers are silenced, where does any aggrieved party go for 
help?
    Even in a flawed rule of law country like China, still, as 
your husbands did, you effectuated change. They spoke on behalf 
of victims and, in some cases, got durable remedy.
    So I want to pledge to you that we will all continue. We 
will make that request of the Trump administration, that you 
meet with him and with the Vice President, and we will do that 
immediately by way of letter and by way of phone calls and 
visits because he needs to look you in the eyes so that when he 
looks Xi Jinping in the eyes, he has your husband and your 
interests right there front and center.
    So if there is anything you would like to add in terms of 
what we might have missed, this is your opportunity before we 
run over to vote.
    We are joined by Chairman Mark Meadows. But if there is 
anything that you would like to add before we conclude. Yes, 
Ms. Wang.
    Ms. Wang. I would like to add on to what we hope the U.S. 
Government will be doing. My husband, Mr. Tang Jingling, was 
not participating in anything illegal. These are recognized by 
both the international community as well as China.
    Although he is sentenced to 5 years, I hope that he could 
be released. Mr. Tang was incarcerated due to his participation 
in nonviolent civil disobedience, and that resulted in his 
mother's death.
    I hope he could come home and visit his elderly father. I 
hope the U.S. would put extra emphasis and follow these 
situations of human rights victims or political prisoners and 
their families who are being persecuted. Because these actions 
are a violation of human rights, we hope that the U.S. 
Government will bring these concerns to the Chinese Government. 
The torturing of all the incarcerated people should stop. They 
should also stop the persecution against their families, 
lawyers, and their children. They should also stop their 
persecution against Christians, Buddhists, Falun Gong, or other 
religious groups.
    Thirdly, I would like to request that the Ambassador to 
China, Beijing would meet with these victims and families of 
these victims.
    I would also like to ask that before President Trump meets 
President Xi he would also meet with the families of these 
victims who reside in the U.S.
    Thank you very much.
    Ms. Li. My husband's incidents have caused a panic among 
Taiwanese NGO workers. I hope the United States could strongly 
pay attention to my husband's incident because all NGO workers 
around the globe might face the same situation. Thank you.
    Mr. Smith. Thank you.
    Without objection, a letter signed by several scores--I 
think there are about 40 scholars on behalf of your husband--
will be made a part of the record. It includes a very diverse 
group of people, including the former the chief of staff for 
one of our colleagues, Senator Claiborne Pell, and without 
objection this will be made a part of the record.
    Anybody else before we close? And Mark, would you want to--
Ms. Jin.
    Ms. Jin. I have another small request. I hope the U.S. 
Government can raise this issue and ask the Chinese Government 
to launch an independent investigation on the torture against 
the lawyers in the 709 cases, and especially the torture method 
of being drugged. Thank you.
    Mr. Smith. I would like to yield to my good friend and 
colleague, Mr. Meadows.
    Mr. Meadows. Mr. Chairman, I want to thank you once again 
for being a voice for so many people who don't have a voice.
    I mean, there is one person out of 435 Members that is a 
champion and that is not to be disrespectful of my colleagues. 
I think he would recognize that there is a champion who always 
wants to make sure that he reaches out, and you are recognized 
by both Democrats and Republicans, and I just want to say thank 
you.
    But for each one of you, I want to also say that with my 
colleague opposite from a Democratic perspective but also on 
the Republican side that we will work in a bipartisan way to 
address these atrocities and these human rights violations. And 
I can assure you, at the very highest levels of our Government, 
they will be made aware of the personal tragedy that you have 
had to endure and so I just wanted to say that for the record 
that your testimony here today is meaningful and it will be 
shared in the appropriate way.
    And Mr. Chairman, I yield back.
    Mr. Smith. Mr. Meadows, thank you very much and I really 
appreciate your work on behalf of human rights that has been 
longstanding and particularly as a member of this subcommittee. 
Thank you.
    The hearing is adjourned and I thank you all very much.
    [Whereupon, at 4 o'clock p.m., the subcommittee was 
adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         
     
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
                    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                   
                    
 
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                   
                    

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
                                 
</pre></body></html>
